No.

In the Supreme Court of the United States
CODY WILLIAM COX,
Petitioner,
v.
DON WILSON,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Tenth Circuit
PETITION FOR A WRIT OF CERTIORARI
JAMES F. SCHERER
Miller & Law, P.C.
1900 W. Littleton Blvd.
Littleton, CO 80111
(303) 722-6500
EUGENE R. FIDELL
Yale Law School Supreme
Court Clinic
127 Wall Street
New Haven, CT 06511
(202) 432-4992

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

Counsel for Petitioner

i
QUESTION PRESENTED
A government official is not protected by qualified
immunity from damages liability if the official “violate[s] clearly established statutory or constitutional
rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818
(2004). In determining whether a right is “clearly established,” the “salient question * * * is whether the
state of the law * * * give[s] [a government official] fair
warning that their alleged [conduct] * * * was unconstitutional.” Hope v. Pelzer, 536 U.S. 730, 741 (2002).
The courts of appeals utilize conflicting standards
to decide whether this “fair warning” standard is satisfied—a conflict that has deepened as a result of the
Tenth Circuit’s ruling in this case.
The question presented is:
Whether a court may uphold a qualified immunity
claim on the ground that qualified immunity had been
granted in a prior case in which the “impropriety” of
the government official’s conduct would be “more apparent to most laypersons”—as the panel did here—
or whether this Court’s “clearly established” standard
obligated the court of appeals to compare the facts of
the case before it to the facts of other relevant precedents to determine whether the government official
would have had fair notice that his conduct was unconstitutional.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
TABLE OF AUTHORITIES.......................................iv
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
STATEMENT ..............................................................1
A. Factual Background. ..............................................3
B. Proceedings Below. ................................................6
1. The District Court’s Rulings. ......................6
2. The Court of Appeals’ Decision. ..................9
REASONS FOR GRANTING THE PETITION ....... 13
A. The Decision Below Violates this Court’s
Qualified Immunity Precedents. ......................... 13
1. The Tenth Circuit Failed to
Undertake the Proper Inquiry. ................. 15
2. Under the Proper “Clearly
Established” Standard, Qualified
Immunity Should Have Been
Denied. ....................................................... 17
B. The Decision Below Expands the Existing
Lower Court Conflict Regarding The
Proper Standard for Determining Whether
an Official’s Conduct Violates Clearly
Established Law................................................... 20
1. Some circuits have adopted an
appropriate “fair notice” standard
that does not require excessive
factual similarity. ...................................... 21

iii
2. The Fifth Circuit requires a high
degree of factual similarity. ...................... 24
3. Several circuits fail to apply a
consistent standard. .................................. 25
C. This Case is an Excellent Vehicle for
Providing Needed Guidance on the
Frequently-Recurring Issue of Identifying
Clearly Established Law. .................................... 27
D. The Question Is Properly Presented. .................. 29
CONCLUSION .......................................................... 30

iv
TABLE OF AUTHORITIES
Page(s)
Cases
Allen v. City of Muskogee,
119 F.3d 837 (10th Cir. 1997) .............................. 15
Ashcroft v. al-Kidd,
563 U.S. 731 (2011) .............................................. 13
Baynes v. Cleland,
799 F.3d 600 (6th Cir. 2017), cert.
denied, 136 S. Ct. 1381 (2016) ............................. 25
City of San Francisco v. Sheehan,
135 S. Ct. 1765 (2015) .................................... 16, 17
Coates v. Powell,
639 F.3d 471 (8th Cir. 2011) ................................ 26
Cordova v. Aragon,
569 F.3d 1183 (10th Cir. 2009), cert.
denied, 558 U.S. 1152 (2010) ....................... passim
Dean v. McKinney,
976 F.3d 407 (4th Cir. 2020) ................................ 23
Hancock v. County of Rensselaer,
882 F.3d 58 (2d Cir. 2018) ................................... 24
Harlow v. Fitzgerald,
457 U.S. 800 (1982) .............................................. 14

v
TABLE OF AUTHORITIES—continued
Page(s)
Hatch v. Dep’t for Children, Youth &
Their Families,
274 F.3d 12 (1st Cir. 2001) .................................. 23
Hope v. Pelzer,
536 U.S. 730 (2002) .............................. 2, 14, 18, 21
Kelsay v. Ernst,
933 F.3d 975 (8th Cir. 2019) ................................ 26
Kisela v. Hughes,
138 S. Ct. 1148 (2018) (per curiam) .................... 14
Kneipp v. Tedder,
95 F.3d 1199 (3d Cir. 1996) ................................. 22
L.R. v. Sch. Dist. of Philadelphia,
836 F.3d 235 (3d Cir. 2016) ........................... 21, 22
Latits v. Phillips,
878 F.3d 541 (6th Cir. 2017) ................................ 26
Limone v. Condon,
372 F.3d 39 (1st Cir. 2004) .................................. 22
Mattos v. Agarano,
661 F.3d 433 (9th Cir. 2011) (en
banc), cert. denied, 566 U.S. 1021
(2012) .................................................................... 27
Morrow v. Meachum,
917 F.3d 870 (5th Cir. 2019) ................................ 24

vi
TABLE OF AUTHORITIES—continued
Page(s)
Mountain Pure, LLC v. Roberts,
814 F.3d 928 (8th Cir. 2016) ................................ 26
Pauly v. White,
874 F.3d 1197 (10th Cir. 2017), cert.
denied, 138 S. Ct. 2650 (2018) ..................... passim
Pearson v. Callahan,
555 U.S. 223 (2009) .............................................. 13
Phillips v. Cmty. Ins. Corp.,
678 F.3d 513 (7th Cir. 2012) ................................ 23
Sampson v. County of Los Angeles,
974 F.3d 1012 (9th Cir. 2020) .............................. 27
Sevier v. City of Lawrence,
60 F.3d 695 (10th Cir. 1995) ................................ 30
Suboh v. Dist. Attorney’s Office of the
Suffolk Dist.,
298 F.3d 81 (1st Cir. 2002) ............................ 22, 23
Taylor v. Riojas,
141 S. Ct. 52 (2020) ...................................... passim
White v. Pauley,
137 S. Ct. 548 (2017) ............................................ 16
Zia Trust Co. ex rel. Causey v. Montoya,
597 F.3d 1150 (10th Cir. 2010) ................ 19, 20, 24

vii
TABLE OF AUTHORITIES—continued
Page(s)
Statutes, Rules and Regulations
28 U.S.C. § 1254(1) ...................................................... 1
42 U.S.C § 1983 ........................................................... 6
Fed. R. Civ. P. 50(a)(1) ................................................ 1
Other Authorities
Alan K. Chen, The Intractability of
Qualified Immunity, 93 Notre Dame
L. Rev. 1937 (2018) .............................................. 28
Michael S. Catlett, Clearly Not
Established: Decisional Law and the
Qualified Immunity Doctrine, 47
Ariz. L. Rev. 1031 (2005) ..................................... 28

PETITION FOR A WRIT OF CERTIORARI
Petitioner Cody William Cox, respectfully petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Tenth Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals panel (App.,
infra, 1a-20a) is reported at 959 F.3d 1249. The order
of the court of appeals denying rehearing and rehearing en banc (id. at 21a-32a) is reported at 971 F.3d
1159. The district court’s oral decision denying respondent’s motion under Federal Rule of Civil Procedure 50(a)(1) for judgment as a matter of law on qualified immunity grounds (id. at 33a-52a) is unreported.
The district court’s order denying respondent’s motion
for summary judgment on qualified immunity
grounds (id. at 53a-62a) is unreported.
JURISDICTION
The judgment of the court of appeals was entered
on August 19, 2020. This Court’s jurisdiction rests on
28 U.S.C. § 1254(1).
STATEMENT
This case involves a police shooting that made Petitioner Cody Cox a quadriplegic. The shooting occurred at the end of a car chase, when Cox’s vehicle
was boxed in by other cars—including two police
cars—and could not get away. Deputy Don Wilson, respondent here, exited his vehicle and almost immediately shot the unarmed Cox through the passenger
window of Cox’s car.

2
Cox’s evidence at trial included an expert on law
enforcement tactics who testified “that Wilson’s recklessness”—by leaving his vehicle rather than de-escalating the situation—“created the danger leading to
the shooting.” App., infra, 15a. The district court
nonetheless refused to instruct the jury that it could
consider whether Wilson’s recklessness unjustifiably
created the need to use force—even though circuit
precedent plainly required such an instruction. The
jury returned a defense verdict and Cox appealed, arguing that the failure to give the instruction constituted reversible error.
The Tenth Circuit panel declined to address the
jury instruction issue, despite acknowledging that the
district court’s justification for its decision rested on
erroneous reasoning. Instead, the panel determined
that any instructional error was irrelevant because
Deputy Wilson was protected by qualified immunity.
The panel’s qualified immunity determination violated this Court’s precedents and deepened an existing conflict regarding the standard for determining
when an official is not entitled to qualified immunity
because his or her actions violated clearly established
law.
This Court has stated that law is clearly established if “the state of the law”—typically decisions
from this Court or the courts of appeals—gives a government official “fair warning that their alleged [conduct] * * * was unconstitutional.” Hope v. Pelzer, 536
U.S. 730, 741 (2002). The Court has rejected the contention that “the facts of [these] cases [must] be materially similar” to those at issue in order to deny qualified immunity. Id. at 739 (citation omitted).

3
The panel below failed to undertake the necessary
inquiry. “[R]ather than compare the specific facts of
the present case with those of prior cases”—as this
Court requires—“the panel satisfie[d] itself with comparing the relative perceived egregiousness of police
conduct in factually dissimilar cases.” App., infra, at
26a (en banc dissent). And if it had compared the facts
here to those in prior Tenth Circuit cases, it would
have been obliged to hold that Deputy Wilson is not
protected by qualified immunity.
Prior to the panel’s decision, there was a conflict
among the courts of appeals regarding the degree of
factual similarity required to hold that the “clearly established law” standard is satisfied. The panel’s approach expands that conflict and increases the need
for this Court’s intervention to provide guidance on
the issue.
To be sure, this Court recently considered the issue of qualified immunity in Taylor v. Riojas, 141 S.
Ct. 52 (2020). But because the misconduct by the officer there was so egregious—housing a prisoner in
“deplorably unsanitary conditions for * * * an extended period of time” (id. at 53)—this Court’s decision may not provide guidance for cases involving less
extreme facts. To the extent the Court concludes that
additional guidance would be useful, it should grant
plenary review here. If the Court concludes that Taylor does provide additional guidance, it should grant
the petition, vacate the judgment of the Tenth Circuit,
and remand the case for further proceedings in light
of Taylor.
A. Factual Background.
On January 31, 2014, Respondent Don Wilson—a
deputy in the Clear Creek, Colorado, Sheriff’s Office—

4
responded to reports of erratic driving on Interstate
70 by Petitioner Cody Cox. App., infra, 2a-4a, 34a.
Deputy Wilson pursued Cox, who refused to obey Wilson’s verbal requests to stop, weaving through stopand-go traffic, until—as a result of congestion that
brought traffic to a halt—Cox’s car was boxed in by a
civilian’s vehicle immediately in front of him; the vehicle driven by another officer, Deputy Kevin Klaus,
behind him; Deputy Wilson’s vehicle on his right; and
the highway guardrail on his left. Id. at 4a-5a.
Cox was unable to drive away and remained in his
vehicle. Neither Sarah Kincaid, the civilian in the vehicle in front of Cox, nor Deputy Klaus, in the car behind Cox, saw Cox’s vehicle move, aside from slightly
rocking back and forth. App., infra, 5a-7a.
Deputy Wilson several times ordered Cox to turn
off his vehicle. App., infra, 4a-5a. When Cox did not
comply, Wilson exited his patrol vehicle, stepped onto
the highway, and approached Cox’s vehicle at the passenger window with his firearm drawn. Id. at 5a. Deputy Wilson fired “[a]lmost immediately,” through the
open window, striking Cox in the neck. Ibid. Cox was
unarmed. Id. at 23a. The shooting rendered Cox a
quadriplegic. Id. at 6a.
Deputy Klaus, who had been approaching Cox’s
vehicle from behind, assumed that Deputy Wilson had
fired his taser; he did not think that use of a firearm
was justified, given that—in his view—Cox did not
pose any immediate threat to officer safety or the public. App., infra, 56a-57a.
Deputy Wilson testified that Cox had repeatedly
rammed Ms. Kincaid’s vehicle, but Ms. Kincaid had no
recollection that her car had been hit by Cox’s vehicle—other than slight contact after Deputy Wilson

5
had fired his weapon. App., infra, 55a-57a. Deputy
Klaus testified that he did not witness Cox’s car ramming Ms. Kincaid’s vehicle—or any significant movement of Cox’s vehicle before he heard the gunshot. Id.
at 57a.
Deputy Wilson testified that he fired his gun because Cox’s vehicle lurched forward and to the right,
threatening to crush him between Cox’s vehicle and
his patrol car. App., infra, 6a. But neither Ms. Kincaid
(in the car in front of Cox) nor Deputy Klaus (behind
Cox’s car) saw Cox’s vehicle move. Id. at 55a-58a Indeed, the evidence showed that the vehicle and its
wheels were parallel with the road, indicating that it
could not have been moving to the right toward Deputy Wilson. Id. at 56a. Moreover, Cox’s car was surrounded, making it impossible for him to drive away.
Id. at 58a.
Finally, Wilson testified that he saw Cox drop his
hand down as Wilson approached him and believed
that Cox might be reaching for a weapon. App., infra,
4a.
Cox’s expert witness on law-enforcement policies
and tactics, who had “excellent credentials,” testified
“that Wilson’s recklessness created the danger leading to the shooting.” App., infra, 15a. The expert
stated that Deputy Wilson
should not have left his car to approach Cox
because of the danger to Wilson once he was
on foot on the Interstate and in a vulnerable
position between his patrol car and Cox’s vehicle. He said that Wilson should have remained in his vehicle and attempted to
deescalate the situation, perhaps waiting for
support from additional officers. And he said

6
that once Wilson stepped onto the Interstate,
he should have moved to a position of safety
at the rear of his vehicle.
Ibid.
B. Proceedings Below.
1. The District Court’s Rulings.
Cox commenced this action against Deputy Wilson in the District Court for the District of Colorado
seeking damages pursuant to 42 U.S.C § 1983 on the
ground that Wilson had used force so excessive that it
violated Cox’s Fourth Amendment right against unreasonable seizure.
Deputy Wilson moved for summary judgment on
the basis of qualified immunity. The district court
stated that “[w]hen the allegedly excessive force is
‘deadly force’ then the force is ‘justified only if a reasonable officer in the officer’s position would have had
probable cause to believe that there was a threat of
serious physical harm to himself or others.” App., infra, 40a-41a (footnote omitted) (quoting Cordova v.
Aragon, 569 F.3d 1183, 1192 (10th Cir. 2009), cert. denied, 558 U.S. 1152 (2010)).
The court concluded that the relevant facts were
in dispute, but that (1) “to the extent [Wilson] claims
that he was acting in order to defend himself, the
Court cannot conclude as a matter of law that [he]
acted in an objectively reasonable manner”; and (2) “to
the extent [Wilson] claims he acted in a manner calculated to defend third parties from harm, the Court
cannot conclude that as a matter of law [he] acted in
an objectively reasonable manner.” App., infra, 44a,
48a. Thus,“[u]nder a set of facts which a reasonable
jury could find to be true, Defendant did not act in an

7
objectively reasonable manner and, therefore, violated [Cox’s] Fourth Amendment Right against unreasonable seizure.” Id. at 48a.
Turning to whether Cox’s Fourth Amendment
right was clearly established—and Wilson therefore
not entitled to invoke qualified immunity protection—
the district court pointed to a number of decisions
from the Tenth Circuit and other courts of appeals issued prior to the events in this case. Based on those
decisions, the district court held that Wilson “was on
notice that it was unlawful for him to use deadly force
against [Cox], when he did, if the facts of the situation
were as [Cox] asserts.” App., infra, 49a. It stated:
Under a certain view of the facts which a reasonable jury could accept, [Cox’s] truck was
stopped in traffic, the police had the ability to
remove [Cox] from the truck or to impede the
progress of his truck without a firearm, the
truck never moved toward [Wilson] after he
exited his patrol vehicle, and the truck was
‘bound in’ such that it could not pose a serious
risk of physical harm to [Wilson] or others.
Given those facts a reasonable jury could conclude that it was totally unnecessary to use
deadly force to restrain[] the suspect or to protect officers and the public.
Id. at 49a-50a.
The case proceeded to trial, and the jury returned
a verdict in favor of Deputy Wilson. However, the district court vacated the verdict because of misconduct

8
by Deputy Wilson’s then-defense counsel during that
trial. App., infra, 7a-8a.1
During the second trial, Wilson moved at the end
of the plaintiff’s case for judgment as a matter of law
on qualified immunity. The district court denied the
motion from the bench. App., infra, 52a-62a.
The court first held that, based on Cox’s evidence,
the jury could conclude that Wilson “shot [Cox] without any reasonable fear of his own or other[s’] safety,”
which would establish a constitutional violation App.,
infra, 58a-59a. And the court “reaffirm[ed]” its summary judgment analysis, stating that “[g]iven the
facts in the light most favorable to the plaintiff, * * *
a jury could decide that [Cox] posed no imminent
threat at the time he was shot and that no reasonable
police officer in the same circumstances could have
perceived an imminent threat.” Id. at 59a. It went on
to state:
If the jury so concludes, the clearly established law prong does not require even greater
specificity, such as a case about a boxed-in motorist posing only a threat or a boxed-in motorist in jammed ski traffic on I-70 posing no
immediate threat. * * * [Wilson] cannot argue
that he was not fairly warned that unreasonable discharge of his firearm is just as unconstitutional against a boxed-in motorist as [it]
would be against anyone else.
Id. at 59a-60a.

Wilson appealed the district court’s denial of qualified immunity, but the court of appeals dismissed the appeal on the ground
that it was untimely. App., infra, 23a.
1

9
Before the case was submitted to the jury, the district court denied Cox’s request to instruct the jury
that it could consider whether Wilson’s unreasonable
actions created the need to use force—even though in
the first trial the court had instructed the jury that
“[d]efendant Don Wilson’s own conduct prior to the
shooting can be a part of your determination of reasonableness, but only if his own reckless or deliberate
conduct during the seizure unreasonably created the
need to use such force.” App., infra, 9a-10a (emphasis
omitted).
The jury returned a verdict in favor of Deputy Wilson.
2. The Court of Appeals’ Decision.
Cox appealed on the ground that the district court
erred by refusing to instruct the jury that it could consider Deputy Wilson’s unreasonable actions in determining whether Cox’s Fourth Amendment rights had
been violated.
The panel did not address that issue—indeed, it
acknowledged that “the district court incorrectly
stated that the Supreme Court had recently abrogated
this court’s precedents requiring such an instruction
in appropriate circumstances.” App., infra, 2a. The
panel instead affirmed on qualified immunity
grounds. Id. at 13a-20a.2 It stated that including the
instruction “would have denied Wilson the qualified
immunity to which he was entitled.” Id. at 13a.

The panel issued an initial decision, but “[a]n active judge of
the court then called a poll, sua sponte, to consider en banc review of the panel decision. Subsequently, the panel sua sponte
granted panel rehearing to amend its [initial] opinion for clarification purposes.” App., infra, 21a.
2

10
The panel recognized that “qualified immunity
did not completely protect Wilson from Cox’s claim.
Cox was certainly entitled to an instruction on the unreasonable use of force.” App., infra, 14a. It stated,
however, that “even if the jury was persuaded by the
expert’s trial testimony that Wilson had acted unreasonably in leaving his vehicle, qualified immunity protected Wilson from liability on that score.” Id. at 16a.
It rested that conclusion on its determination that
there was no sufficiently similar precedent “finding a
Fourth Amendment violation due to the officer’s recklessly causing the need to use deadly force,” in which
“after participating in a high speed and dangerous
chase of a suspect, the officer exited his vehicle during
a temporary stop in traffic to confront the driver with
a show of deadly force.” Ibid.
The panel rested that determination on Pauly v.
White, 874 F.3d 1197, 1214 (10th Cir. 2017), cert. denied, 138 S. Ct. 2650 (2018), which—in the panel’s
view—required it to uphold Wilson’s claim of qualified
immunity. App., infra, 17a-19a.
That case involved the use of deadly force by officers against drunk-driving suspects in their home. The
panel stated that the Pauly court had “concluded that
the threat ‘made by the brothers, which would normally justify an officer’s use of force, was precipitated
by the officers’ own’ reckless actions, and that therefore the use of deadly force was unreasonable.” App.,
infra, 17a. Nevertheless, the Pauly defendants “were
entitled to qualified immunity because there was no
clearly established law that such recklessness [by itself] created liability.” Id. at 18a.
The panel concluded that Pauly required it to afford qualified immunity to Wilson in the present case.
It stated that, “[u]nlike Wilson’s decision to leave his

11
vehicle to try to disable Cox’s vehicle, the impropriety
of the alleged actions by the officers before the shooting in Pauly would be apparent to most laypersons.”
Id. at 19a. Because “the Pauly officers were protected
by qualified immunity” notwithstanding their more
egregious conduct, the same outcome was required
here. Ibid.
Judge Lucero, joined by Judge Phillips, dissented
from the denial of Cox’s petition for rehearing en banc.
App., infra, 22a-32a. The dissenters stated that the
panel’s qualified immunity analysis “exponentially
expands in this circuit the judicially created doctrine
of qualified immunity into an all-purpose, no-default,
use-at-any-time defense against asserted police misconduct.” Id. at 22a. “Instead of expressly ruling on
the merits of the issues raised and granting the parties the due process to which they are entitled, the
panel chose to openly entangle the previously denied
and dismissed doctrine of qualified immunity into its
analysis.” Id. at 22a-23a.
They observed that the panel decision “ignore[d]
that the district court denied qualified immunity to
Wilson * * * because the relevant ‘factual context
[wa]s highly disputed’” and that, “rather than compare the specific facts of the present case with those of
prior cases, the panel satisfies itself with comparing
the relative perceived egregiousness of police conduct
in factually dissimilar cases.” App., infra, 26a.
“Specifically,” the dissenters stated, “the panel relies only on the facts of Pauly, a case that did not involve a car chase, vehicular pursuit, or any facts remotely similar to the facts of the instant case.” App.,
infra, 26a. And, “rather than attempt to compare the
particular facts of Pauly with the particular facts of
the present case, the panel compares its assessment of

12
the relative impropriety of wholly different misconduct in distinct qualified immunity cases to determine
whether the clearly-established prong is satisfied.” Id.
at 27a.
Observing that “[t]he Supreme Court has repeatedly warned lower courts not to assess the clearly-established prong at a high level of generality” (id. at
28a), the dissenters concluded:
At a time when “courts of appeals are divided—intractably—over precisely what degree of factual similarity must exist” for a constitutional violation to be clearly established,
the panel opinion effectively signals to lower
courts that they may circumvent issues of factual fit by relying on idiosyncratic assessments of the relative impropriety of officer
misconduct. Shifting the focus from “particularized” facts to nebulous notions of comparative impropriety places this case squarely into
the conflict among our sibling circuits in applying the clearly-established prong.
Id. at 28a-29a (citation omitted).
The dissenters identified two significant adverse
consequences from the panel’s decision. First, “it allows panels to use qualified immunity, at any stage of
litigation, to uphold an otherwise erroneous decision
of the district court,” “notwithstanding a substantial
dispute regarding the evidence; notwithstanding the
denial of a previous motion not appealed in a timely
manner; and notwithstanding the district court denied qualified immunity time and again.” App., infra,
31a.
Second, “it shields police misconduct from liability
so long as any other government officer at some point

13
committed—in the panel’s mind—more improper conduct and was not held liable.” App., infra, 31a. They
argued that the panel’s decision, if left standing,
would contribute to the “relentless transformation of
qualified immunity into an absolute shield.” Ibid.
REASONS FOR GRANTING THE PETITION
The court below seriously misapplied this Court’s
precedents in concluding that Deputy Wilson was entitled to qualified immunity—and thereby expanded
the conflict among the lower courts regarding the
standard for determining whether a precedent provides the fair notice that precludes qualified immunity. Moreover, that issue is squarely presented in this
case. The Court should grant review to provide guidance to the lower courts regarding the proper standard. To the extent the Court concludes that additional
guidance is provided by Taylor v. Riojas, supra—decided after the panel decision here—the Court should
grant the petition, vacate the panel’s judgment, and
remand the case for reconsideration in light of Taylor.
A. The Decision Below Violates this Court’s
Qualified Immunity Precedents.
Recognizing that government officials often must
make difficult, split-second decisions, the Court fashioned the qualified immunity doctrine to “give[] government officials breathing room to make reasonable
but mistaken judgments about open legal questions”
in the course of carrying out their duties. Ashcroft v.
al-Kidd, 563 U.S. 731, 743 (2011).
But the Court has balanced that concern with “the
need to hold public officials accountable when they exercise power irresponsibly.” Pearson v. Callahan, 555
U.S. 223, 231 (2009). It has therefore held that quali-

14
fied immunity protection does not extend to government officials who “violate clearly established statutory or constitutional rights of which a reasonable person would have known.” Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982).
If a court can identify a prior ruling by this Court
or the relevant court of appeals providing notice that
the conduct in question was unconstitutional, the
court must deny qualified immunity in the case before
it. Kisela v. Hughes, 138 S. Ct. 1148, 1153 (2018) (per
curiam). Importantly, the Court has rejected the requirement that “the facts of [these] cases be ‘materially similar’” to those at issue in order to deny qualified immunity. Hope v. Pelzer, 536 U.S. 730, 739
(2002). Rather, “the salient question * * * is whether
the state of the law * * * [gives a government official]
fair warning that their alleged [conduct] * * * was unconstitutional.” Id. at 741.
The court below failed to undertake that mandatory inquiry, substituting its own novel test. Instead,
the panel concluded that qualified immunity was warranted because immunity had been upheld in a case
involving what the panel believed to be more egregious conduct.
As a result, the panel erroneously granted qualified immunity to Deputy Wilson and deprived Cox of
the opportunity to have his case decided under the correct legal standard. This Court should not condone the
injustice arising from the Tenth Circuit’s clear repudiation of its qualified immunity precedents.

15
1. The Tenth Circuit Failed to Undertake the
Proper Inquiry.
The panel below failed to apply this Court’s qualified immunity standard. Rather than compare the instant case to factually similar precedent, the Tenth
Circuit engaged in an ad hoc qualified immunity analysis that has no grounding in this Court’s precedents.
As the en banc dissenters explained, the panel
based its grant of qualified immunity on Pauly v.
White—whose facts were not “remotely similar to the
facts of the instant case.” App., infra, 26a.
In Pauly, several police officers approached the
rural home of drunk-driving suspects without identifying themselves as law enforcement officers, and
when asked to identify themselves by the suspects, replied, “we got you surrounded. Come out or we’re coming in.” 874 F.3d at 1204. Both suspects armed themselves in response, and one was shot after he pointed
his weapon in the officer’s direction—misperceiving
the officer as an intruder. Id. at 1203-05.
The Pauly court concluded that the officers were
entitled to qualified immunity, stating that there was
no precedent “close enough on point to make the unlawfulness of [the officers’] actions apparent.” Id. at
1223. It stated that the case on which the district
court relied to deny qualified immunity in Pauly—Allen v. City of Muskogee, 119 F.3d 837 (10th Cir.
1997)—addressed the legal issue at too high a level of
generality.
To support that conclusion, the Pauly court
pointed to the district court’s statement that “[s]ince
1997, it has been clearly established in the Tenth Circuit ‘that an officer is responsible for his or her reckless conduct that precipitates the need to use force.’”

16
874 F.3d at 1222. That statement “suffers from the
same lack of specificity as does the general propositions * * * that ‘use of force is contrary to the Fourth
Amendment if it is excessive under objective standards of reasonableness,’ which, by itself, ‘is not
enough.’” Id. at 1222-23 (citations omitted).
The panel below transposed Pauly’s conclusion to
this case, on the theory that because qualified immunity was available for what it viewed as the egregious
conduct in Pauly, it therefore necessarily must be
available to cover the conduct here. As the panel put
it:
Unlike Wilson’s decision to leave his vehicle to
try to disable Cox’s vehicle, the impropriety of
the alleged actions by the officers before the
shooting in Pauly would be apparent to most
laypersons. Yet the Pauly officers were protected by qualified immunity because of the
absence of clearly established law prohibiting
their conduct. If qualified immunity protects
the officers in Pauly against the claim of unreasonably creating a dangerous situation
that led to the use of deadly force, surely Wilson is similarly protected.
App., infra, 18a.
That analysis violated this Court’s precedents.
Courts must engage in a fact-based “particularized”
inquiry” (White v. Pauley, 137 S. Ct. 548, 552 (2017))
to ascertain whether prior decisions provided an officer “fair warning” that conduct was unlawful. City of
San Francisco v. Sheehan, 135 S. Ct. 1765, 1778
(2015).
But the panel treated Pauly as an across-theboard determination that qualified immunity must be

17
available in all excessive force claims involving officer
recklessness less “apparent to most laypersons” than
the conduct in Pauly. App., infra, 18a. Ironically, the
panel here committed the same error that led to reversal of the district court in Pauly—resting its decision to grant qualified immunity on a statement that
is untethered to the facts of this case.
That flaw in the panel’s opinion was the basis for
the en banc dissent. “[R]ather than compare the specific facts of the present case with those of prior cases,
the panel satisfies itself with comparing the relative
perceived egregiousness of police conduct in factually
dissimilar cases.” App., infra, 26a. And “rather than
attempt to compare the particular facts of Pauly with
the particular facts of the present case, the panel compares its assessment of the relative impropriety of
wholly different misconduct in distinct qualified immunity cases to determine whether the clearly-established prong is satisfied.” Id. at 27a.
The panel’s approach replaces this Court’s clear
focus on “particularized” factual fit between the instant case and prior caselaw with “nebulous notions of
comparative impropriety.” App., infra, 28a. “No precedent supports this novel, expansive inquiry.” Ibid.
As we next discuss, if the panel had applied the
proper standard, it would have found qualified immunity unavailable in this case.
2. Under the Proper “Clearly Established” Standard, Qualified Immunity Should Have Been Denied.
If the panel had faithfully followed this Court’s
guidelines for conducting the “clearly established” inquiry, it would have been compelled to deny qualified
immunity here.

18
As explained above, the question is whether cases
decided at the time of the challenged conduct provided
an official “fair warning that their conduct violated
the Constitution.” Hope, 536 U.S. at 741. Importantly,
that does not require that “facts of previous cases be
materially similar” or even “fundamentally similar” to
the situation in question. Id. at 739-740.
The district court conducted this inquiry twice—
concluding both times that the availability of qualified
immunity turned on the jury’s resolution of disputed
facts. See pages 6-8, supra. That court relied on a
number of precedents, particularly Cordova v. Aragon, supra.
Cordova—like the present case—involved a car
chase that ended with the officer shooting the suspect
(in that case, fatally). There, the suspect was driving
a truck pulling heavy excavation equipment and drove
through red lights and in the wrong direction (opposite the traffic flow) on a highway. The suspect’s truck
was moving at the time the officer shot the suspect—
the officer had gotten out of his car to try to use barriers to stop the suspect’s vehicle and stated that he
feared that the suspect was attempting to run him
over.
The Tenth Circuit analyzed the facts in detail and
held that, depending on how conflicting contentions
were resolved, the officer could have been found to
have used excessive force. 569 F.3d at 1195-1196.
If an officer employed excessive force by shooting
at a moving vehicle that allegedly was threatening the
public and the officer, then Wilson had more than fair
notice that he was violating the Fourth Amendment
when he left his car and used deadly force when Cox’s

19
vehicle could not escape because it was surrounded by
other vehicles.
To be sure, the facts of Cordova were not identical
to the present case. Nevertheless, the Cordova court’s
conclusion that those facts were sufficient to support
a constitutional violation surely sufficed to put Wilson
on notice that his conduct was unconstitutional.
But, despite the clear factual similarities between Cordova and the instant case, the panel below
ignored both Cordova and the district court’s analysis.
Moreover, a second Tenth Circuit decision provides further support for the conclusion that Wilson
had fair notice that his actions violated Cox’s clearly
established rights.
In Zia Trust Co. ex rel. Causey v. Montoya, 597
F.3d 1150 (10th Cir. 2010), officers responded to a dispatch informing them of a dispute between an individual with mental-health issues—Megan—and his father. Upon arriving, Officer Montoya exited his car
with his gun already drawn and confronted Megan,
who was operating a van in the driveway that was
stuck on a pile of rocks. Officer Montoya placed himself in front of the vehicle while his partner yelled for
Megan to exit the vehicle. Suddenly, the car jumped
forward about a foot, and in response, Officer Montoya
fired a single shot in the vehicle, fatally wounding Megan. Id. at 1153-1154.
The Tenth Circuit held that Montoya “violated
clearly established law when he used deadly force
against [the plaintiff]” because he had no “probable
cause to believe that there was a serious threat of serious physical harm” to himself or others. Zia Trust
Co., 597 F.3d at 1155.

20
The factual fit between Zia Trust Co. and the case
before the Court is clear. Deputy Wilson—like Officer
Montoya—shot Petitioner Cox through an open passenger window “almost immediately.” App., infra, 5a.
As in Zia Trust Co., moreover, there was little evidence to support Wilson’s supposition that Cox intended to ram him with his vehicle: the car hardly
moved once it was boxed in. See pages 4-5, supra.
Comparing Cordova and Zia Trust Co. with the
facts of the present case makes clear that the Tenth
Circuit would have denied qualified immunity if it had
followed this Court’s precedent for determining
clearly established law. These cases do not merely resemble one another in an abstract sense—similarities
exist as to the specifics of the officers’ conduct and the
situation to which they were responding. Simply put,
the robust similarities between the particularized circumstances in Cordova, Zia Trust, and the present
case plainly provided Wilson with fair notice that his
actions violated the Constitution.
B. The Decision Below Expands the Existing Lower Court Conflict Regarding The
Proper
Standard for
Determining
Whether an Official’s Conduct Violates
Clearly Established Law.
The Tenth Circuit’s aberrant approach to the
clearly-established law inquiry exemplifies the confusion among the lower courts regarding the standard
to be applied to determine when a constitutional right
is clearly established. This Court must intervene to
ensure that a uniform standard applies throughout
the country, so that a plaintiff’s ability to prevail does
not depend on where his or her claim is brought.

21
Most circuits acknowledge that a right is clearly
established if there is controlling precedent with sufficiently analogous facts to put an officer on notice—
the facts need not be identical, rather the critical
question is whether an officer could deduce from the
decided cases that his conduct was unlawful. At least
one circuit applies a severe standard that requires
practically identical facts. And in several circuits, the
test for determining clearly established law is uncertain.
1. Some circuits have adopted an appropriate
“fair notice” standard that does not require
excessive factual similarity.
The most common approach among the lower
courts allows plaintiffs to show that a constitutional
right has been clearly established even if the relevant
precedent’s facts are not directly on point. The courts
applying this standard would have found that Cox had
satisfied the clearly established prong, denying qualified immunity here.
The Third Circuit recognizes that “earlier cases
involving fundamentally similar facts can provide especially strong support for a conclusion that the law is
clearly established, [but] they are not necessary to
such a finding.” L.R. v. Sch. Dist. of Philadelphia, 836
F.3d 235, 248 (3d Cir. 2016) (quoting Hope, 536 U.S.
at 741). In L.R., even though no precedent directly established that a teacher was liable for the foreseeable
harm that resulted from releasing a kindergartener
into the custody of a stranger who subsequently sexually assaulted her, the court identified “sufficiently
analogous cases that should have placed a reasonable
official in [the teacher’s] position on notice that his actions were unlawful.” Id. at 249.

22
The court compared the case involving the teacher
and student to one in which officers abandoned a
clearly intoxicated woman on a cold night and were
held liable for the injuries she subsequently suffered
due to exposure to the cold. Ibid. (citing Kneipp v. Tedder, 95 F.3d 1199 (3d Cir. 1996)). The facts in the two
cases were substantially different. One involved a
child, the other an adult woman. One involved the
threat of abuse by a stranger, the other exposure to
the elements. Yet the court nonetheless recognized a
common thread: in both cases, government officials
left a vulnerable person in the path of foreseeable
harm. That common thread was all the court needed
to conclude that the right was clearly established.
The First Circuit also does not require that
“facts of previous cases be materially similar to the
facts sub judice in order to trump a qualified immunity defense.” Limone v. Condon, 372 F.3d 39, 48 (1st
Cir. 2004). Instead, the court’s analysis focuses on
whether facts of the previous case convey fair warning
to the officer. Even general statements of the law can
in appropriate circumstances be “capable of conveying
fair warning.” Ibid.; see also Suboh v. Dist. Attorney’s
Office of the Suffolk Dist., 298 F.3d 81, 94 (1st Cir.
2002) (“We have no doubt that there is a clearly established constitutional right at stake, although we have
found no case exactly on all fours with the facts of this
case. The difference in contexts * * * does not mean
such a right does not exist.”).
In Suboh, the First Circuit denied qualified immunity to an officer who released a child to her grandparents amid a custody dispute between the grandparents and the child’s mother, in defiance of instructions to place the child with the state while the custody dispute was resolved. The grandparents

23
subsequently removed the child to Morocco, out of
reach of her mother.
The court compared the case to Hatch v. Dep’t for
Children, Youth & Their Families, 274 F.3d 12, 16 (1st
Cir. 2001), even though Hatch involved a starkly different set of facts. There, the child was removed from
his father under suspicion of child abuse. Nonetheless,
the court in Suboh said that “Hatch settle[d] the matter.” Suboh, 298 F.3d at 94.
The Fourth Circuit denied qualified immunity
to an officer whose reckless driving severely injured a
motorist. See Dean v. McKinney, 976 F.3d 407 (4th
Cir. 2020). That officer was traveling 80 miles per
hour on an unlit, curvy road, without using his lights
or siren. He was not responding to an emergency or
pursuing a fleeing suspect. The court explained that
the officer’s conduct violated rights “manifestly included within more general applications of the core
constitutional principles invoked.” Id. at 419 (internal
quotation mark omitted). Though there was no precedent squarely on point, a “reasonable officer in [the
defendant’s] position would have known his conduct
was not only unlawful, but that it created a substantial risk of serious harm to those around him.” Ibid.
Likewise, the Seventh Circuit held that it was
clearly established that officers could not shoot an unresponsive suspect, resting its decision on cases involving “police forc[ing] a handcuffed, drunk driving
suspect who was verbally resisting arrest into a police
car by breaking the suspect’s ribs” and “officers who
injured a disabled plaintiff while placing him in police
cruiser.” Phillips v. Cmty. Ins. Corp., 678 F.3d 513,
529 (7th Cir. 2012). And the Second Circuit has recognized that it “‘does not require a case on point con-

24
cerning the exact permutation of facts that state actors confront in order to establish a clear standard for
their behavior.’” Hancock v. County of Rensselaer, 882
F.3d 58, 69 (2d Cir. 2018).
Under the test employed by these courts, Deputy
Wilson would not be afforded qualified immunity—the
Tenth Circuit would have concluded that its decisions
in Cordova and Zia were sufficient to put Deputy Wilson on notice that his conduct would violate Cox’s
rights. That clear disparity by itself demonstrates the
conflict among the lower courts.
2. The Fifth Circuit requires a high degree of
factual similarity.
The Fifth Circuit applies a different rule, characterizing as “heavy” the burden of proving that a constitutional right has been clearly established. Morrow
v. Meachum, 917 F.3d 870, 874 (5th Cir. 2019). The
right must be defined specifically, not generally. Id. at
874-875. And it must be based upon holdings, not
dicta. Id. at 875-876.
The bar is particularly high in excessive-force
cases. Only a precedent whose facts “squarely govern[]” the case at hand suffices. Id. at 876 (internal
quotation mark omitted). A lower court thinking of
denying qualified immunity, should “think twice.”
Ibid.
This Court most recently confronted the Fifth Circuit’s strict standard in Taylor v. Riojas, supra. The
Court summarily reversed a Fifth Circuit decision upholding qualified immunity for corrections officers
who allegedly forced an inmate to spend four days in
a prison cell covered with feces, only to move him to
another cell where he had to sleep in raw sewage. The

25
court of appeals had held that qualified immunity applied because no prior case had held that a prisoner
couldn’t be contained in a cell teeming with waste for
six days. Taylor v. Riojas, 141 S. Ct. at 53
The facts in Riojas demonstrate the extreme consequences that naturally flow from the Fifth Circuit’s
burdensome standard. It remains to be seen whether,
and to what degree, that court’s approach to the
clearly established law inquiry will change in light of
this Court’s guidance. As it stands, however, the Fifth
Circuit’s harsh standard presents a stark contrast to
those adopted by its sister circuits.
3. Several circuits fail to apply a consistent
standard.
With its decision below, the Tenth Circuit joins
the group of courts of appeals that fail to apply a consistent standard in determining whether a right is
clearly established.
Recent Sixth Circuit decisions exemplify the
problem. In Baynes v. Cleland, 799 F.3d 600 (6th Cir.
2017), cert. denied, 136 S. Ct. 1381 (2016), the court
denied qualified immunity to an officer who had handcuffed an arrestee too tightly. There was no precedent
within the circuit with facts directly on point—the arrestee complained only once, and the duration he was
handcuffed was relatively short. Nonetheless, the
court recognized that its precedents had clearly established the more general principle that “unduly tight
handcuffing is a constitutional violation.” Id. at 614.
Thus, the Sixth Circuit reasoned by analogy, holding
that if excessively tight handcuffing was unconstitutional in other circumstances, it was unconstitutional
in the novel circumstances at hand.

26
In Latits v. Phillips, 878 F.3d 541 (6th Cir. 2017),
the court applied a different approach. The case concerned an officer, standing at the side of a car, who
shot a motorist attempting to drive away who posed
no threat to the officer’s safety. Id. at 552. Circuit
precedent had “clearly established that shooting a
driver while positioned to the side of his fleeing car
violates the Fourth Amendment, absent some indication suggesting that the driver poses more than a
fleeting threat.” Id. at 553 (internal citation omitted).
But the court distinguished those cases because they
involved an arrestee fleeing for the first time, while
the plaintiff in Latits had already attempted to flee.
The Eighth Circuit, too, has equivocated. In
most cases, the Eighth Circuit’s standard resembles
the Fifth Circuit’s strict test, requiring that the facts
from precedent “squarely govern[].” Kelsay v. Ernst,
933 F.3d 975, 980 (8th Cir. 2019) (internal quotation
mark and citation omitted). In Ernst, the district court
had denied qualified immunity to a sheriff’s deputy
who had tackled to the ground a woman who was
walking away from him but was not violent—relying
on appellate decisions establishing that officers could
not use force against nonviolent arrestees. The Eighth
Circuit reversed, demanding a higher degree of specificity. The court observed that none of the prior cases
had involved a nonviolent arrestee who was walking
away from the officer, and it relied on that distinction
to find that the law was not clearly established. Ibid.
But Eighth Circuit panels have sometimes applied a less demanding test. In Mountain Pure, LLC
v. Roberts, 814 F.3d 928 (8th Cir. 2016), the court
stated that it “requir[ed] some, but not precise factual
correspondence with precedent.” Id. at 932 (quoting
Coates v. Powell, 639 F.3d 471, 476 (8th Cir. 2011)).

27
The Ninth Circuit has also applied inconsistent
tests. Its routine approach matches the fair notice rule
applied in the majority of circuits. For instance, in
Sampson v. County of Los Angeles, 974 F.3d 1012,
1019 (9th Cir. 2020), it held that the facts of previous
cases need not be fundamentally or materially similar
to those of the case at hand in order to overcome qualified immunity.
But in Mattos v. Agarano, 661 F.3d 433, 452 (9th
Cir. 2011) (en banc), cert. denied, 566 U.S. 1021
(2012), the court required a high degree of similarity,
holding that because it had never addressed an officer
using a taser specifically in dart mode, it was obliged
to uphold qualified immunity.
With its decision below, the Tenth Circuit adds to
the collection of discordant standards that courts employ to determine whether a right is clearly established. Because of this disagreement among the courts
of appeals, a plaintiff’s ability to obtain justice often
depends on where his or her case is filed rather than
on the merits of their case. Only this Court can resolve
this fundamental conflict between the circuits.
C. This Case is an Excellent Vehicle for
Providing Needed Guidance on the Frequently-Recurring Issue of Identifying
Clearly Established Law.
This Court has made clear that, to defeat qualified
immunity, a plaintiff must point to prior case law with
sufficiently similar facts to provide “fair warning” to
the officers that their contested conduct is unconstitutional. But—as the conflicting decisions of the lower
courts demonstrate—the Court has not provided clear
guidance regarding the required degree of factual similarity.

28
Indeed, commentators have recognized that the
current state of the law leads to significant uncertainty and unpredictability. See, e.g., Alan K. Chen,
The Intractability of Qualified Immunity, 93 Notre
Dame L. Rev. 1937, 1951 (2018) (arguing that qualified-immunity doctrine allows judges to decide cases
“in a manner that is heavily influenced by their own
normative values about what officials ought to know
and when they ought to be held accountable * * * [a
possibility that] may lead to highly inconsistent decisionmaking”); Michael S. Catlett, Clearly Not Established: Decisional Law and the Qualified Immunity
Doctrine, 47 Ariz. L. Rev. 1031, 1035-1036 (2005) (criticizing the ad hoc and arbitrary nature of qualifiedimmunity doctrine resulting from the absence of a
uniform standard regarding the required factual similarity).
1. This case presents an appropriate vehicle for
the Court to address the level of factual similarity necessary to overcome a qualified-immunity defense. In
addressing that issue, the Court can also clarify that
the existence or absence of the requisite fair notice
turns on an appropriate degree of factual similarity
between cases, not a subjective assessment of the relative egregiousness of factually dissimilar conduct.
Providing guidance in the context of excessiveforce cases would be particularly beneficial. The lower
courts adjudicate a large number of disputes involving
official uses of excessive force, and many officers are
granted qualified immunity precisely because of the
inadequate guidance on factual similarity. This case,
which involves excessive force by a law-enforcement
officer resulting in the petitioner’s paralysis, is an appropriate vehicle to provide guidance for future excessive-force cases.

29
2. The Court recently addressed the clearly established law issue in Taylor v. Riojas, supra, overturning the Fifth Circuit’s grant of qualified immunity.
The Court held that no reasonable officer could have
concluded that the conduct in Taylor was constitutionally permissible given the “egregious facts.” Taylor,
141 S. Ct at 54.
Taylor did not provide any express guidance on
the level of factual similarity required under the
“clearly established” inquiry. It therefore would be
beneficial for the Court to take that additional step in
this case.
But Taylor did canvass the relevant precedents
and, by virtue of the Court’s conclusion, demonstrated
that precise factual similarity is not required. Therefore, to the extent the Court concludes that it is not
appropriate to grant plenary review, it should grant
this petition, vacate the court of appeals’ judgment,
and remand for reconsideration in light of Taylor’s
analysis of the clearly established law issue.
D. The Question Is Properly Presented.
The qualified-immunity issue in this case arises
in a somewhat unusual context. But the issue is
squarely presented for this Court’s resolution.
During the first trial, the district court instructed
the jury to consider whether Deputy Wilson’s own
recklessness contributed to the danger in its reasonableness inquiry. During the second trial, however, the
district court refused to give this instruction. App., infra, 9a-10a; pages 8-9, supra.
The Tenth Circuit affirmed the district court’s refusal to grant this jury instruction—but only because
it concluded that Wilson was entitled to qualified immunity and that permitting the jury instruction

30
would conflict with that determination. App., infra,
13a; pages 9-11, supra. Because Wilson is not entitled
to qualified immunity—as explained (at pages 1720)—the court of appeals erred by refusing to reverse
the district court’s decision based on its failure to give
the jury instruction.
Indeed, the court of appeals acknowledged that
the district court’s decision was based on a legal error—which is why it turned to the qualified immunity
analysis. App., infra, 2a; page 9, supra. Under controlling circuit precedent, a jury may consider, for purposes of the Fourth Amendment reasonableness inquiry, the officer’s own reckless conduct in creating
the need to use force. Sevier v. City of Lawrence, 60
F.3d 695, 699 (10th Cir. 1995).
A party is entitled to a jury instruction if it has
introduced sufficient competent evidence at trial.
App., infra, 12a-13a. And both the panel and the en
banc dissenters below recognized that Cox presented
expert testimony that Deputy Wilson acted recklessly
in exiting the police car on a highway. Id. at 15a; id.
at 25a (Lucero & Phillips, JJ., dissenting from the denial of rehearing en banc). Without the panel’s qualified immunity determination, therefore, Cox is entitled to the requested jury instruction at trial, and the
panel therefore erred in affirming the district court’s
judgment.
CONCLUSION
The petition for a writ of certiorari should be
granted. In the alternative, the Court should grant
the petition, vacate the court of appeals’ judgment,
and remand the case for further proceedings in light
of Taylor v. Riojas, supra.

31
Respectfully submitted.
ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
EUGENE R. FIDELL
(202) 263-3000
Yale Law School Supreme
apincus@mayerbrown.com
Court Clinic
127 Wall Street
New Haven, CT 06511
(202) 432-4992
Counsel for Petitioner

JAMES F. SCHERER
Miller & Law, P.C.
1900 W. Littleton Blvd.
Littleton, CO 80111
(303) 722-6500

JANUARY 2021

